BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-843
NEW YORK STATE RIFLE & PISTOL ASSOCIATION, INC.,
ROBERT NASH, BRANDON KOCH,

Petitioners,
V.

KEV1N P. BRUEN, in His Official Capacity as Acting
Superintendent of New York State Police, RICHARD
J. MCNALLY, JR., in His Official Capacity as Justice
of the New York Supreme Court, Third Judicial
District, and Licensing Officer for Rensselaer
County,

Respondents.
As required by Supreme Court Rule 33. l(h), I
certify that the Reply Brief for Petitioners contains
2,985 words, excluding the parts of the Petition that
are exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on March 10, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

,

8790 Governor's Hill Drive
Suite l 02
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.
Date:

[seal]

JVlMcA-1 tO I 0V

a/

c/o-tv lj . /J~

Notary Public

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
P-ebnDrv 14, 2023

